<html>
<title> - THE GROWING CRISIS IN SOUTH SUDAN</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                    THE GROWING CRISIS IN SOUTH SUDAN

=======================================================================

                                 HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 7, 2016

                               __________

                           Serial No. 114-236

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                       U.S. GOVERNMENT PUBLISHING OFFICE
21-459PDF                       WASHINGTON : 2016                       
                                
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e495e416e4d5b5d5a464b425e004d414300">[email&#160;protected]</a>  
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 
                                 
                              ---------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Donald Booth, Special Envoy to Sudan and South 
  Sudan, U.S. Department of State................................     7
The Honorable Princeton N. Lyman, senior advisor to the 
  president, U.S. Institute of Peace.............................    39
Mr. Brian Adeba, associate director of policy, Enough Project....    45

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald Booth: Prepared statement...................    11
The Honorable Princeton N. Lyman: Prepared statement.............    41
Mr. Brian Adeba: Prepared statement..............................    47

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
Written responses from the Honorable Donald Booth to questions 
  submitted for the record by the Honorable Edward R. Royce, a 
  Representative in Congress from the State of California, and 
  chairman, Committee on Foreign Affairs.........................    56
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Questions submitted for the record and written 
  responses from:
  The Honorable Princeton N. Lyman...............................    58
  Mr. Brian Adeba................................................    59

 
                   THE GROWING CRISIS IN SOUTH SUDAN

                              ----------                              


                      WEDNESDAY, SEPTEMBER 7, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order and good 
afternoon, everyone. Thank you for being here.
    On April 27 of this year our subcommittee held a hearing on 
South Sudan's prospects for peace. An accord that appeared to 
have finally ended the civil war that broke out in December 
2013 was reluctantly signed by both the Government of South 
Sudan and the Sudan People's Liberation Movement-in-Opposition 
in August 2015.
    We were cautioned by Ambassador Booth at the time and I 
remember your testimony on April 27, Mr. Ambassador, when you 
said that these are the most significant advancements yet in 
implementing the peace agreement.
    But you also cautioned and said it is only a first step 
toward lasting peace--the most difficult work still lies ahead 
and those words were prophetic and certainly very, very true, 
especially given what happened in July.
    Peace was never fully established in South Sudan as a 
result of the August agreement. In fact, as we all know, 
fighting spread to areas that had not previously seen armed 
conflict.
    An estimated 50,000 South Sudanese have been killed since 
December 2013. More than 2.5 million have been displaced and 
4.8 million face severe hunger.
    According to the U.N. Mission in the Republic of South 
Sudan, or UNMISS, ``gross violations of human rights and 
serious violations of humanitarian law have occurred on a 
massive scale.''
    South Sudanese women have long reported cases of sexual 
assault by armed forces throughout the country, sometimes in 
sight of UNMISS bases.
    This past July, between 80 to 100 armed soldiers broke into 
the Terrain compound which houses aid workers and international 
organizations' staff and for several hours they sexually 
assaulted women, beat residents, murdered one South Sudanese 
journalist, and looted the facility.
    UNMISS did not respond to the desperate calls for help from 
residents even though their own personnel lived in the Terrain 
compound and the U.N. Mission officials say the various 
components of UNMISS didn't respond to orders to mobilize from 
within the organization.
    U.N. peacekeepers were just minutes away but they refused 
to intervene despite being asked and having a robust legal 
mandate to do so.
    A contingent of South Sudanese military ultimately rescued 
the victims from other rampaging troops. The investigation by 
the South Sudanese Government is scheduled to be completed 
within days and just over the weekend our U.N. Ambassador, 
Samantha Power, had asked and has asked that there be an 
independent panel to look into what happened there.
    And there must be consequences for those who are found 
guilty. The rapidly deteriorating security and the increasingly 
dire humanitarian situation led me to undertake an emergency 
mission to South Sudan 2 weeks ago along with staff director 
Greg Simpkins.
    I have known Salva Kiir since he became First Vice 
President in the Government of Sudan in 2005. As a matter of 
fact, I met him in Khartoum only weeks after he assumed that 
office and I hoped my visit might convey to him the outrage 
over the murder, rape, sexual assault, attack on aid workers, 
and the precarious situation that his government faces.
    South Sudan is at a tipping point. The United Nations will 
likely take up a measure to impose an arms embargo if they do 
not see implementation of what looks like was an agreement over 
the weekend to deploy some 4,000 peacekeepers.
    The International Monetary Fund has strongly recommended a 
mechanism for financial transparency and that meets next month, 
likely expecting a response from South Sudan.
    Meanwhile, the House and Senate both have measures that 
have an arms embargo embedded in it as well. In Juba, we met 
with President Kiir, other members of the cabinet and his 
Defense Minister, Kuol Manyang Juuk, and the top members of his 
staff including the Chief of General Staff, Paul Malong, 
considered by many to be a major power behind the scenes.
    I emphasized to them that the widespread rape and sexual 
exploitation and abuse by soldiers must stop now and that 
perpetrators of these despicable crimes must be prosecuted in a 
response both President Kiir and Defense Minister Juuk agreed 
to produce a zero tolerance Presidential decree against rape 
and sexual exploitation by armed forces.
    Such a decree not only informs perpetrators that they will 
be punished for their actions but it places the government on 
the line to enforce such a decree.
    The U.N. High Commission for Human Rights has previously 
described the South Sudan's Government to hold perpetrators of 
abuses accountable as ``few and inadequate'' and that, of 
course, must change.
    President Kiir also gave us a copy of a Presidential order 
forming a commission to investigate the incident at the Terrain 
compound. The results of that are due any day now.
    There are, however, four military officers and one civilian 
in custody for looting the Terrain compound. But no one has 
been arrested for sexual assaults, beatings or the public 
murder of a South Sudanese journalist.
    One of the victims of sexual assault at Terrain is from my 
congressional district. After relating horrible details of the 
assault by two soldiers she gave us the name of the soldier who 
``rescued her'' and who might be able to provide information 
that could be used to prosecute those who attacked her at the 
Terrain compound and I conveyed that to Salva Kiir and the 
Defense Minister.
    As you know, Mr. Ambassador, there are about 20,000 
humanitarian aid workers in South Sudan, 2,000 of whom are from 
the United States and other foreign countries.
    If there is not greater security of these humanitarian 
personnel and supplies, vital assistance will diminish at a 
time that it is needed most. The exploitation of children as 
child soldiers must stop as well. According to UNICEF, 16,000 
child soldiers have been recruited by all sides since the civil 
war began in December 2013.
    Moreover, this year the U.S. State Department Trafficking 
in Persons report gave South Sudan a failing grade place it on 
Tier 3, in part because of child soldiers.
    South Sudan faces the possibility again of a U.N. arms 
embargo, again, if they do not implement the deployment of the 
4,000 Regional Protection Force.
    There is yet time for South Sudan to make its pivot to 
peace and good governance by faithfully implementing a 
comprehensive peace accord including and especially the 
establishment of a hybrid court signed 1 year ago.
    But time is running out. It is a very, very fluid and, 
unfortunately, volatile situation. The governments of the three 
guarantors of South Sudan's peace--the United States, the UK, 
and Norway--all have expressed their disgust with the South 
Sudanese Government and its armed opposition for not adhering 
to the August 2015 peace agreement and providing to the extent 
it can for the security and the well-being of its people.
    However, expressions of disdain are not enough. This 
hearing is not only intended to examine culpability for the 
current situation but also to try to find solutions that will 
safeguard the future of one of the world's newest nations and 
its citizens.
    As a guarantor of peace, the United States can and should 
do no less.
    I would like to now yield to my friend and colleague, Ms. 
Bass, the ranking member of the subcommittee.
    Ms. Bass. Thank you, Mr. Chair, and thank you for your trip 
that you and Mr. Simpkins made. I know it was on very short 
notice but a very important delegation. So I'm glad that you 
did that and also that we are having this hearing so quickly.
    I also want to thank Ambassador Booth and Ambassador Lyman 
and I'm glad that we will be hearing your testimony today.
    I was in South Sudan in November and I went there with a 
small delegation to look at the U.N. peacekeeping mission at 
the time and that was before Machar returned and the big 
concern then was will he return and will the nation hold to the 
agreement.
    And it was shortly after President Kiir had divided up the 
nation and expanded the provinces and we were very concerned 
about how you could possibly, since that was done after the 
peace agreement, how can you hold to the peace--how can you 
hold to the power sharing that had been agreed to in the peace 
agreement if you've reconfigured the entire geography of the 
nation.
    At the time, we were concerned about what was happening 
with UNMISS then. But now, what is going on, how the violence 
had expanded and encompassed and victimized yet again South 
Sudanese citizens and especially the ones that are least able 
to protect themselves--women, girls, and youth.
    In response to the crisis, I joined several of my 
colleagues in a letter to President Obama outlining the 
severity of the deteriorating situation in South Sudan and 
calling on the U.S. to lead the way in calling for an arms 
embargo on South Sudan to stop the needless killing, endless 
brutality, and unconscionable impunity.
    The UNSC August 12th decision to renew UNMISS, the proposed 
revision of its mandate and inclusion of an additional 4,000 
strong Regional Protection Force must be applauded.
    But there must also be clarification regarding the specific 
rules of engagement governing the UNMISS troops.
    I understand that the South Sudanese Government agreed to 
the additional Regional Protection Force as recently as Sunday.
    I look to Ambassador Booth to outline the next steps which 
must be taken to bring an end to the nightmare of violence not 
only by the long-term suffering citizens of South Sudan but 
also by the foreign nationals who, with total disregard for 
their personal welfare, seek to assist these citizens.
    Several of the questions that I have we'll get into in the 
dialogue but I want to propose them in the beginning and, 
obviously, the central question is what more can we do.
    An arms embargo, will it really be effective? It seems as 
though there needs to be a whole international effort that's 
beyond UNMISS and I want to know what your thoughts are in 
terms of the AU and the AU's capacity.
    And also, in terms of UNMISS, what will their role be? Will 
they be able to intervene? Will they be able to be aggressive 
or are they just going to be in a position where, you know, 
they will watch something happening.
    I just think that this situation has reached--and we all 
know this--has reached dire proportions. I was in Nigeria a 
couple of weeks ago and it was a staff member from the State 
Department actually had just been evacuated from South Sudan 
and sent to Nigeria.
    So I really want to be as specific as possible. It's 
important to understand the situation but I really want to get 
down to the brass tacks of okay, now what--what can we do--what 
can we do as a nation and what should the world do because 
otherwise I just don't see the situation getting particularly 
better.
    With that, I yield.
    Mr. Smith. Thank you, Ms. Bass.
    The chair recognizes Mr. Donovan.
    Mr. Donovan. Mr. Chairman, thank you very much. I'm going 
to yield my time so we give the witness some more time to 
testify. Thank you.
    Mr. Smith. Okay. Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Bass for calling this hearing on the growing 
crisis in South Sudan and thank all of our witnesses and 
particularly thank Ambassador Booth and Ambassador Lyman for 
being here today.
    I look forward to hearing from you on the deteriorating 
situation in South Sudan and as Congresswoman Bass said what we 
can do to be effective in responding.
    Like many observers, I was optimistic when South Sudan 
emerged in 2011 as an independent country. However, the civil 
war that has ravaged South Sudan since 2013 had escalated 
alarmingly since the subcommittee's last hearing on South Sudan 
in April. The impact is devastating and the potential for even 
deeper crisis is greatly disturbing.
    Not only does South Sudan face another post-conflict 
reconciliation process, massive and chronic humanitarian needs, 
high-level corruption and widespread displacement of its 
population, but an increase in human rights abuses including 
recruiting child soldiers, which is extremely distressing.
    U.N. officials have asserted that targeted attacks against 
civilians, humanitarians and U.N. personnel in South Sudan 
constitute war crimes or crimes against humanity, and the U.N. 
Mission in South Sudan reports that civilians have been 
directly targeted often along ethnic lines.
    Forces on both sides have committed widespread violence. 
There have been more than 260 attacks on humanitarian workers 
in 2016 alone, including an attack on a residence for aid 
workers in Juba in July which resulted in assaults on several 
Americans and the killing of a local journalist.
    The dangers faced by foreign aid workers could have a 
devastating effect on relief efforts. This is a critical time 
for South Sudan. If the current crisis cannot be brought under 
control and the violence halted, the situation will likely 
deteriorate further and could spin into complete chaos.
    I hope that the South Sudanese Government's decision 
earlier this week to allow the Regional Protection Force to 
deploy will enable the beginning of real improvement in this 
very dire situation.
    I look forward to hearing from our witnesses on what else 
we can do to support stability in that part of the world and I 
thank our witnesses again for being here and yield back.
    Mr. Smith. Thank you. We are joined by full committee 
Chairman Ed Royce of California.
    Chairman Royce. Mr. Chairman, thank you very much.
    I would just start by commending you, Chairman, for your 
sustained focus on the crisis in South Sudan.
    As all of you know, Chairman Smith just traveled to South 
Sudan to engage with our Embassy there and to engage with our 
other partners, and this is the fifth, I think, South Sudan-
specific hearing that the committee has held since this crisis 
began.
    What's unfortunate and, frankly, maddening is the 
underlying problems haven't changed in the past 3 years. It is 
still a man-made crisis. It is still a crisis political in 
nature.
    And what does change every day is the number of innocent 
South Sudanese killed, the number displaced. Tens of thousands 
have been killed, millions have now been displaced.
    I very much appreciate the recent senior-level engagement 
of the administration, including Secretary Kerry's trip to the 
region and Ambassador Samantha Power's leading of a Security 
Council delegation to South Sudan. I was on the phone a few 
hours ago with Secretary Susan Rice on this issue. It is really 
unclear whether this high-level diplomacy can have an impact on 
the ground.
    One of the oddities here is that the anti-American 
sentiment is growing in Juba as of late. There is reporting 
today of an incident in which the Presidential guard 
deliberately opened fire on a U.S. diplomatic convoy traveling 
through the city. I understand command and control of armed 
forces in South Sudan is practically nonexistent in this 
situation--practically nonexistent. But there should never be 
an instance in which American diplomats are specifically 
targeted ever.
    After lengthy Security Council negotiations, the Security 
Council approved of the deployment of a Regional Protection 
Force. I met with the Secretary-General recently of the U.N. on 
this issue and I shared that we welcome the establishment of a 
force. But I know how difficult it is going to be moving this 
from concept to reality. It's going to be far from easy.
    Special Envoy Booth, in your prepared testimony you explain 
that if the Secretary-General reports that the Government of 
South Sudan is impeding the new force's deployment, the 
administration would be prepared to support an arms embargo. 
We've made similar threats in other resolutions and I'm not 
sure anyone in South Sudan takes that threat of an embargo 
seriously anymore. I hope that we will be serious in terms of 
implementation of it.
    Interestingly, in your prepared testimony you made no 
mention of the existing Executive order that would allow the 
sanction of individuals who threaten peace in South Sudan. I 
think that is worth contemplating. I look forward to hearing 
from you why no one had been added to the U.S. sanctions list 
in over a year. There are, surely, people who deserve to be on 
that list. If we fail to hold South Sudan's political leaders 
on both sides accountable for the atrocities committed we 
cannot expect anything to change.
    So I thank you, Mr. Chairman, and I yield back.
    Mr. Smith. Thank you very much, Chairman Royce.
    Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman.
    Again, thank you for letting me sit in on your hearing.
    Mr. Ambassador, since the signing of the peace agreement in 
August 2015 and since the violence in July, the U.N. Security 
Council and the U.S. have both failed to implement an arms 
embargo, as you know, in South Sudan.
    The U.N. and the U.S. have both failed to sanction 
additional individuals that we have proof have been involved in 
the attacks against civilians and that continue to procure 
weapons and military equipment.
    Secretary Kerry, in February in the State and Foreign 
Operations Subcommittee, which I sit on and as well as 
yourself, in April, both told me that the U.S. is committed to 
holding senior officials accountable for continued cease-fire 
violations and human rights violations that undermine the terms 
of the peace agreement in South Sudan.
    You both said that the administration would be willing to 
implement sanctions on such individuals. But Secretary Kerry 
stopped short of endorsing an arms embargo.
    Also in August during a trip to Africa, Secretary Kerry 
threatened to withhold humanitarian assistance to South Sudan 
if leaders there continued to violate the peace agreement.
    So I'm curious to hear in your testimony why the U.S. is 
threatening to withhold assistance to the people of South Sudan 
rather than holding the leaders who perpetuated the violence 
accountable through sanctions and arms embargo.
    I would also like to know who exactly in the administration 
is preventing additional individuals from being sanctioned and 
who do not want to implement an arms embargo.
    Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Mr. Rooney, thank you very much.
    I would like to now welcome Ambassador Booth. Donald Booth 
was appointed Special Envoy to Sudan and South Sudan on August 
28, 2013. He previously served as Ambassador to Ethiopia, 
Zambia, and Liberia.
    Prior to that, he was the director of the Office of 
Technical and Specialized Agencies in the Department of State's 
Bureau of International Organization Affairs.
    Ambassador Booth also has served as director of the Office 
of West African Affairs, deputy director of the Office of 
Southern African Affairs, economic counselor in Athens, and 
division chief for bilateral trade affairs at the State 
Department.
    Ambassador Booth, the floor is yours.

STATEMENT OF THE HONORABLE DONALD BOOTH, SPECIAL ENVOY TO SUDAN 
           AND SOUTH SUDAN, U.S. DEPARTMENT OF STATE

    Ambassador Booth. Thank you very much, Chairman Smith, 
Ranking Member Bass and the members of the committee and 
subcommittee.
    Thank you for the opportunity to speak before you today. I 
want to discuss some of the tragic events that occurred over 
the past 2 months.
    But without ignoring the bitter reality on the ground, I 
also want to focus most of my remarks today on the 
possibilities for the way forward.
    Chairman Smith, as you know from your visit, South Sudan is 
in a dire state. The most recent outbreak of violence in early 
July created a perilous security situation in many parts of the 
country.
    The humanitarian situation, as many of you have noted, is 
one of the most extreme in the world, with 4.8 million people, 
over 40 percent of the population, facing life-threatening 
hunger, 2.5 million displaced and the economy in free fall.
    Serious crime is now a part of daily life for South 
Sudanese and aid workers and their supplies are targets as 
well.
    The violence in early July came about because neither 
President Salva Kiir nor First Vice President Riek Machar was 
willing to work with the other to implement the peace agreement 
or to set up the security arrangements that were designed to 
prevent a return to fighting Juba.
    We saw the moment of greatest optimism since the signing of 
the August 2015 peace agreement, the establishment in late 
April of the transitional government. We saw it shattered by 
the irresponsibility and ruthlessness of South Sudan's leaders.
    Both leaders lost control of their forces during a moment 
of tremendous political fragility, and government soldiers 
engaged in sexual violence against civilians including the 
attacks on both South Sudanese and foreigners at Terrain Camp.
    Now, I would be remiss not to pause here and praise the 
work of Ambassador Molly Phee and her team at Embassy Juba. 
They have faced enormous hardships and real danger in doing 
their jobs and their work has been, frankly, extraordinary.
    They have, against long odds, preserved the engagement 
needed to help the people of South Sudan. They have done so 
despite two events that I know are on your minds.
    First, on the night of July 7th, just a few hours after a 
deadly encounter between government and opposition security 
forces in the same area, two vehicles carrying several of our 
diplomats were fired upon by government soldiers.
    Fortunately, because they were both armored vehicles, the 
occupants were not injured. Ambassador Phee confronted 
President Kiir the following day and received an apology as 
well as assurances that there would be a thorough 
investigation.
    That day, however, was also the same day that major 
fighting broke out between the government and opposition. The 
second event was much more tragic--the attack by scores of 
uniformed government security forces against the Terrain Camp 
where 12 Americans and over 30 third country and South Sudanese 
nationals were located.
    The attack involved hours of looting, beatings, rapes and 
the murder of a prominent South Sudanese journalist, John 
Gatluak. I would like to express at this point my personal 
condolences to John's family and to all of the survivors of the 
attack.
    That attack occurred toward the end of 2 days of heavy 
fighting in Juba which saw government forces drive out Machar's 
security contingent.
    Even as shooting raged near the U.S. Embassy compounds, as 
soon as the Embassy was alerted to the attack, Ambassador Phee 
contacted South Sudanese security officials whom she believed 
still had command of their forces and the convinced them to 
intervene to rescue those under assault at the camp.
    I want to stress that Ambassador Phee did everything within 
her power and resources in those circumstances to assist those 
who were under assault at the Terrain Camp.
    In the aftermath of the attack, our priority was the care 
and evacuation of the victims and then to protect their privacy 
and to demand justice for them.
    My written testimony contains a thorough account of what we 
know about the awful events at Terrain Camp that day as well as 
what we are doing to ensure safety of our personnel.
    Now, I would like to focus the rest of my statement on what 
I see as the way forward or at least a way forward. First, in 
the wake of the fighting in Juba in July, a political 
accommodation to avoid further fighting and suffering remains 
as important as ever.
    But given that neither President Kiir nor former Vice 
President Riek Machar could prevent their security entourages 
from fighting, we do not believe it would be wise for Machar to 
return to his previous position in Juba.
    That said, this cannot serve as a justification for 
President Kiir to monopolize power. What is most urgently 
needed is creation of a secure space in Juba for an inclusive 
political process to forestall further violence.
    That is why we strongly support the Intergovernmental 
Authority on Development's call for deployment of a Regional 
Protection Force to Juba to provide for free and safe movement 
throughout the capital.
    The RPF should proactively contribute to stability and 
thereby allow for the demilitarization of Juba. But we must be 
clear that the government will need to allow the RPF to do its 
job once it is in Juba.
    No political process can take place as long as large 
numbers of armed men and heavy weaponry remain in the capital. 
Stabilizing the security situation in Juba is only the first 
step.
    Any political process, to be credible and viable, must be 
inclusive. I believe what is needed is for South Sudan's 
political and military leaders in and out of government to meet 
together to figure out how to jointly shoulder responsibility 
for preventing further bloodshed.
    However, this can only succeed if those currently in power 
are willing to accommodate the legitimate interests of others. 
The violence in early July drove out significant factions of 
the SPLM-in-Opposition, of the Former Detainees and other 
political parties.
    These groups must be deterred from supporting any further 
violence. Thus, they must see a path for peaceful engagement.
    South Sudan's leaders must also look ahead to the creation 
of a professional inclusive national army and other security 
institutions. They need to be able to articulate an agreed end 
state of security sector reform.
    As any international support for cantonment, or DDR, 
activities will depend among other things on the credibility of 
the envisioned security sector end state.
    The Transitional Government should then prioritize 
legislation, establishing an open consultative process for 
drafting and ratifying a new constitution under which elections 
will be held at the end of a transitional period.
    In addition, the Transitional Government should prioritize 
legislation regarding the African Union-led Hybrid Court for 
South Sudan.
    A recent opinion survey showed that 93 percent of South 
Sudanese believe there can be no enduring peace without 
accountability. We agree.
    What I have described is a sequence of interdependent 
events. I'm describing them as a way forward, not because it 
will be easy to implement them but because it is difficult to 
see any other path that does not lead to a future of oppressive 
one-party rule, renewed conflict or, most likely, both.
    I am not naive about the chances of these things happening. 
Our ability to influence events in South Sudan and steer its 
leaders to a more constructive behavior is limited.
    The Security Council's permanent representatives just 
returned from a trip to South Sudan. We were pleased that the 
council was able to come to agreement with the Transitional 
Government on several key issues including the government's 
consent to deployment of the Regional Protection Force and to 
work with the U.N. Mission that's already there.
    However, we now need to see those words turned into action. 
If the Secretary-General's report finds that the government is 
obstructing deployment of the Regional Protection Force or 
continuing to prevent UNMISS from fulfilling its mandate we are 
prepared to support an arms embargo in the Security Council.
    Beyond an arms embargo, we stand prepared to impose visa 
restrictions on individuals involved in public corruption, as 
official corruption has a long history in South Sudan and has 
played a direct role in furtherance of conflict in the country.
    Mr. Chairman, I would have liked to come before this 
subcommittee today with better news. Unfortunately, we now face 
a difficult and uncertain path for South Sudan. It is a 
frustrating and disheartening situation, particularly, of 
course, for South Sudanese.
    It is their future that grows bleaker by the day. With them 
in our minds I believe we must continue to press South Sudan's 
leaders to give peace a chance.
    Thank you for inviting me to speak today and I look forward 
to answering your questions.
    [The prepared statement of Ambassador Booth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                              ----------                              

    Mr. Smith. Mr. Ambassador, thank you so very much for your 
statement and your fine work. Without objection, your full 
statement will be made a part of the record.
    Just a few opening questions, and I do want to add my 
congratulations and thanks to Ambassador--the U.S. Ambassador 
to South Sudan, Molly Phee, and her staff who, under 
unbelievably trying circumstances, have been working around the 
clock to try to secure the peace, provide for access of 
humanitarian aid workers, which is one of the biggest 
impediments and why so many people are dying of malnutrition 
and why so many young people, especially children and babies, 
are succumbing to starvation. They are working hard and I want 
to thank her for her leadership as well.
    Let me ask you about the zero tolerance policy that the 
Defense Minister, when I asked him said they would do against 
rape and sexual assault.
    He made it very clear that he was going to call the 
President to try to get him to do it as well. We did meet with 
Salva Kiir and I raised it with him and he too said he would do 
it.
    We have called back since then, a little over a week. It 
hasn't been promulgated yet and, of course, the mere issuance 
of a statement without implementation is not worth the paper it 
is printed on.
    So we are hoping that the two will go hand in hand. Good 
strong statement--hold these service members, these armed 
forces to account, and police, and put them behind bars when 
they sexually assault and rape and kill and maim. Your thoughts 
on that.
    Secondly, Ambassador Lyman, who as you know will be 
testifying on the second panel, who performed your job 
admirably and with great distinction when he was the Special 
Envoy, makes the point in his testimony that the new rapid 
protection force should not be under UNMISS, the U.N. Mission 
there.
    Greg Simpkins and I met with Ellen Loj, who's the head of 
the United Nations Mission and she said they tried to get 
commanders to make the trip which is only or less than a mile 
away to try to save people who were under assault at Terrain 
and they wouldn't go, and this isn't the first time.
    It's happened several times. They have the right rules of 
engagement. This isn't Sarajevo all over again or UNPROFOR in 
the former Yugoslavia and elsewhere. They have robust rules of 
engagement in Chapter 7 powers.
    He suggested it be under a separate authority and mission. 
Your thoughts on that, whether or not that would be improvement 
and provide some additional help.
    And then the access issue--it seems to me that if, as I 
said, people will die if there is not humanitarian access. The 
huge majority of humanitarian workers are South Sudanese who, 
in a way are in a special category of risk--your thoughts on 
what we could do there.
    And then security sector reform--when you testified last 
time you put the agreement under four basic baskets which are 
mutually inclusive of each other--governance and constitutional 
reform, macroeconomic reform and transparency, security sector 
reform, and justice and reconciliation.
    And I think as you pointed out and as pointed out by 
others, the Hybrid Court ought to be set up. It ought to be 
done yesterday to hold people to account for acts of impunity 
and crimes against humanity. But the security sector reform 
seems like the most daunting challenge.
    With all the militias and the lack of chain of command that 
appears to be the situation there, your thoughts on the 
prospects of meaningful systemic reform of the military.
    Ambassador Booth. Thank you very much, Mr. Chairman.
    Let me go through those. First of all, I want to thank you 
for being such a strong advocate for the zero tolerance policy 
on gender-based violence and for rape other such crimes and for 
raising that at the highest levels during your visit in Juba.
    It's certainly something that we are following up on. 
Unfortunately, like many commitments that are made when we meet 
with senior officials in South Sudan, the promises are not 
always turned into reality.
    But it is something that, certainly, is important and we 
will continue to push on that. We will let you know what 
success or lack of success we may have in that regard.
    Secondly, as regards to the Regional Protection Force, 
there are a number of reasons why IGAD proposed and we have 
supported putting the Regional Protection Force as part of the 
U.N. Mission in South Sudan.
    First of all, there is the issue of funding it, and a 
separate stand-alone force under an African Union or an IGAD 
flag would have faced problems of being funded and would have 
severely delayed its ability to be deployed.
    Doing it under the U.N. may not be always the fastest but 
that's one of the things that I've been engaging on in my many 
trips to the region and talking with chiefs of defense and 
foreign ministry officials as well as other senior leaders to 
ensure that the three countries that have pledged troops to 
this Regional Protection Force--Ethiopia, Kenya, and Rwanda--
would be, indeed, prepared to move their forces very quickly 
and we would be prepared to help them to move them quickly to 
do that.
    Also, this force was designed in a way that it would be 
under one commander and that commander would report to the 
force commander of UNMISS but would have the authority and the 
mandate from the troop-contributing countries to use that force 
for the very specific tasks of the mandate in U.N. Security 
Council Resolution 2304, which is to ensure the free movement 
of people in Juba, to protect critical infrastructure including 
the airport and keeping it open, and in intervening should 
anyone be planning or engaging in attacks on the U.N., on 
civilians, on IDPs--a very broad mandate.
    And, again, in our discussions with the troop-contributing 
countries, they have assured us that the troops they would 
deploy to do this mission would have the political backing in 
their capitals to, indeed, enforce those tasks.
    So I understand the skepticism that many may have, having 
looked at other U.N. Missions. But this seemed to be the most 
practical and expedient way of getting troops on the ground who 
could actually provide a security umbrella in Juba.
    But as I said in my testimony, just putting those forces on 
the ground will not solve the problem. They need the 
cooperation of the South Sudanese Government and in the peace 
agreement and particularly in the security arrangements that 
followed it that were negotiated after the signing of the 
agreement in August 2015.
    There was a limitation on the number of forces that both 
Salva Kiir, the government, and Riek Machar, the opposition, 
could have in Juba and all other forces were to be at least 25 
kilometers outside of the city.
    So that is at least a starting point for taking the heavy 
weapons and many of the security forces that are currently in 
Juba and getting them out and we would hope that the government 
would cooperate in further reducing the military footprint so 
that the citizens of Juba can feel more secure and so that 
there is the room for the political dialogue that I talked 
about.
    On humanitarian assistance, this is indeed a terrible 
situation. Since the outbreak of this conflict, 59 humanitarian 
aid workers have been killed, making South Sudan the most 
dangerous place for humanitarian aid workers, more dangerous 
than Syria, I am told.
    And so this is a serious problem. It is something we have 
engaged repeatedly on. In my many visits to Juba I have engaged 
with President Kiir, Defense Minister Kuol Manyang and others 
on this.
    We keep receiving assurances that this issue will be 
addressed, that orders are issued, that they simply need to 
have a specific example so they can go after individuals who 
might have been harassing aid workers or stealing aid.
    But, frankly, this has become a systemic problem. Shortly 
after the fighting in July, there was looting of many different 
stores in Juba. One was the World Food Programme warehouse, and 
it was very organized.
    A truck came with a crane, not only to loot the food but to 
take the generator from the WFP compound.
    So this, indeed, does need to investigated and people need 
to be held accountable. I think that is the only way that the 
message will get out that the government is truly serious that 
humanitarian aid workers and their supplies are meant for the 
people of South Sudan and should not be interfered with.
    But this is going to be a continued engagement and a hard 
slog, I am sure, with the government in Juba.
    On security sector reform, the peace agreement and in 
particular the security arrangements negotiated after it called 
for a security and defense sector review board to outline sort 
of the end state of the security arrangements of South Sudan--
what the army would look like, the security services, the 
police, et cetera.
    That board had just begun meeting when things fell apart in 
July this year. But even under the peace agreement it was 
foreseen that it would not come to conclusions for about 18 
months into the transitional period whereas the idea of 
cantoning forces and beginning a DDR process was to start prior 
to that.
    What I'm proposing, and I've said in my testimony, is that 
we really need to have an idea of what the end state is. South 
Sudan has suffered for too long as a heavily militarized state, 
probably understandable in that it was the product of a long 
liberation struggle--Anyanya I and Anyanya II against the 
government in Khartoum--so almost 50 years of struggle.
    But it is time that South Sudan, in order to be able to be 
at peace and to prosper needs to be a less demilitarized state. 
So can we get South Sudanese to agree on what the end state is 
and if we agree that that's a sustainable and reasonable end 
state that's something that then we can look to support.
    So, really, our leverage on getting a meaningful security 
sector reform is that we will not fund things if it isn't a 
reasonable outcome that we are driving toward.
    And then on the Hybrid Court, again, we share frustration 
that this is moving more slowly than we would like. I have 
engaged numerous times and we had our legal experts engage with 
the African Union.
    We are at the verge of giving them $3.3 million to actually 
begin some of the work. We have encouraged them to move forward 
on at least establishing an office for the prosecutor so that 
testimonies and evidence can begin to be collected even before 
the court is established and judges can decide on who would be 
indicted or who would be looked at by the court.
    So that's something we want to push forward. I discussed 
that also with the African Union High Representative for South 
Sudan, the Honorable President Konare, former President of 
Mali, who has been deeply engaged for the past year as well in 
trying to sort out the problems of South Sudan.
    Thank you.
    Mr. Smith. Ms. Bass.
    Ms. Bass. Thank you again, Mr. Ambassador.
    I wanted to know if you could tell me the status of the 
former President of Botswana, Festus Mogae, and if you could, 
one, review the role he is playing and then the status of that.
    We've talked about humanitarian aid and I know no one wants 
to see that end, but how can humanitarian aid get to the 
population?
    You mentioned the World Food Programme and the theft--the 
organized theft that took place and I wanted to know if that 
was the government or the opposition.
    We have talked about an arms embargo and I mentioned that 
in my opening and I wanted to know, one, what is the position 
of the administration on an arms embargo and where are the 
South Sudanese getting their arms from now?
    I also wanted to mention a couple other items.
    Ambassador Booth. Thank you, Congresswoman.
    Let me start with question about the Joint Monitoring and 
Evaluation Commission, which is headed by Botswana former 
President, Festus Mogae.
    He was appointed by IGAD to fulfill the role as chair of 
JMEC. Now, JMEC is a committee that is made up of South 
Sudanese parties as well as of the members of IGAD Plus, who 
are both guarantors and in our case a witness of the peace 
agreement.
    We're not a guarantor of the peace agreement. And he chairs 
monthly meetings of that group, and his function is to oversee 
the implementation of the agreement and where the parties get 
stuck in implementing he is to recommend ways forward. And if 
the parties are blocking implementation his recourse is to 
report to IGAD, to the African Union Peace and Security Council 
and to the U.N. Security Council, and he had done a number of 
reports to those various bodies.
    He has tackled issues such as the problem of the 28 states, 
the impasse in the seating of members of the transitional 
legislature and other elements of the agreement that the 
parties were unable to actually find a way to implement because 
they were not working in good faith with each other.
    After the events of July 8 to 11, JMEC temporarily moved 
its operations to Addis Ababa. They have now gone back to Juba, 
and one of the tasks that the Security Council asked JMEC to 
undertake is to hold a security workshop to determine the level 
and arming of forces that should remain in Juba, and I 
understand that President Mogae has convened a meeting which 
will be held on the 22nd and 23rd of this month to look at 
that.
    So those are the types of activities that JMEC is doing. We 
are one of the major supporters of JMEC. We have contributed 
over $3 million to the operation of the JMEC and we believe it 
is a critical component for successful implementation of any 
part of the peace agreement.
    It has been criticized by the government in particular for 
usurping government authorities.
    We do not see it that way at all. We see it as the 
neutral--President Mogae in particular as the chairman, as the 
neutral arbiter of implementation of the agreement.
    On humanitarian access, I just really would like to clarify 
one thing on what Secretary Kerry was expressing in the press 
conference in Nairobi.
    I really think what he was expressing there was not a plan 
to cut off humanitarian assistance from the United States but, 
rather, a frustration with the continued interference with the 
humanitarian assistance that we are providing and really trying 
to put South Sudan's leaders on notice that they have to get 
serious about dealing with this. That was the message----
    Ms. Bass. I wasn't referencing Secretary Kerry, really. I 
know that there is concern about that here.
    Ambassador Booth. Yes. So, again, how do we get the 
humanitarian assistance delivered? It is a systemic problem and 
it is partly related to the criminality.
    The WFP warehouse incident, for example, occurred after 
opposition forces were driven from the capital so it would have 
to have been government forces that were doing that looting.
    And, again, that is the type of thing that needs to be 
investigated and some examples need to be made of people who 
were involved in that type of activity.
    Of the people that the government claims it has arrested 
for looting in the aftermath of the fighting in July it is not 
clear to us that any individuals--of those individuals 
particularly involved are being looked at for involvement in 
this attack.
    And then the arms embargo--what we have tried to do with 
the arms embargo, as it is a major tool, is to achieve progress 
toward peace by threatening it and we have used that on a 
number of occasions and we think it is one of the reasons that 
the government is seriously looking at allowing the deployment 
of the Regional Protection Force because they know that if 
there is impediments to that--that the United States and I know 
that many other members of the Security Council are already on 
record of supporting the arms embargo.
    But I think most importantly what they heard when the 
Security Council permanent representatives went to Juba this 
past weekend was a unanimous Security Council that was saying 
when we pass a resolution, even though some may have abstained 
on it, it is the Security Council that is speaking and so you 
have to take that seriously.
    And as I mentioned in my testimony, if the Secretary-
General reports that there is continued obstruction of this 
force we are prepared to move ahead and, as we said in Security 
Council Resolution 2304, which we have the pen on, that there 
is an appended resolution to be voted on, which is an arms 
embargo resolution, and we are also prepared to look at other 
tools such as sanctions.
    I must say, though, our record in getting additional people 
sanctioned in the Security Council has not been good. We had 
what we thought was a very good case back about a year ago when 
fighting flared up in the Malakal area right after the signing 
of the peace agreement and the two generals who were 
responsible for this--Paul Malong on the government side and 
Johnson Olony on the opposition side--we put their names 
forward for sanctioning and the Council--several members of the 
Council blocked that effort.
    So it is not--even when you think you have a very clear 
case it is not easy to get the Council to agree on that and it 
is--to be effective travel and financial sanctions really do 
need to have the backing of a broader community than just the 
United States.
    Ms. Bass. Did you mention who's the primary or where's the 
primary place that they get their arms from? Who is selling 
them the arms?
    Ambassador Booth. They seem to have mainly come from the 
former Soviet Union area but I think most of them come in 
through the gray or black market arms market.
    I don't have specific countries that I can attach to 
specific arms platforms because obviously, the government goes 
to some lengths to keep that information to itself.
    But, clearly, it has access still to arms and----
    Ms. Bass. Which is why I wonder about the effectiveness of 
an arms embargo. But anyway----
    Ambassador Booth. Well, that's why if an arms embargo is 
voted it has to be something that is done by the Security 
Council so that it will have the imprimatur of that body and 
the weight of the international community behind it.
    Ms. Bass. So, Mr. Chair, before I yield I just wanted to 
bring attention to someone who's in the audience who was a 
former intern with me, David Acuoth, who was part of the Lost 
Boys and Lost Girls that have been living very successfully in 
the United States and is leading an effort with other Lost Boys 
and Lost Girls--I should say Lost Men and Lost Women because 
they are all grown.
    But we actually plan to next week introduce legislation 
calling for a program that would be run by us, by the State 
Department, to allow some of the former Lost Boys and Lost 
Girls to return to South Sudan.
    Those individuals who have come here, who have gotten their 
education, who have been successful and want to go back and 
give back to their country, obviously, no one would suggest 
that they go back right now.
    But given the length of time it takes to do legislation we 
certainly would hope if a program like that is instituted it 
was one that had been suggested before many years ago by one of 
your former colleagues that it is something that we might 
consider.
    So I just want to mention that and I will save my other 
questions for the next witness.
    Mr. Smith. Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman, and Mr. Ambassador, 
thank you for your service to our country. Many of the things 
that you spoke about are troubling.
    Two things I would like for you to address, if you could 
for us, is one, is the recruitment of children to fight in 
these battles and the other is the U.N. Mission and South 
Sudan's inability to protect the workers that are going there 
on humanitarian missions.
    And the last thing, if you have a moment, is you spoke 
about the path of peaceful engagement. I was just curious about 
how you think we get there.
    Ambassador Booth. Thank you, Congressman.
    On child soldiers, I think the number was already read out 
of about 16,000 supposedly have been recruited during the 
course of this conflict since December 2013.
    Child soldiers had been a problem in South Sudan before 
this current conflict. It's something that we had actually 
engaged very robustly with the Ministry of Defense prior to 
December 2013 on and which we were making actually some real 
progress in getting child soldiers out of the SPLA and even 
addressing those who were in many of the militias throughout 
the country.
    Mr. Donovan. Ambassador, what ages are we speaking about, 
if you know?
    Ambassador Booth. I have heard of children as young as 10 
and 12 being involved. It could be even younger, in some cases. 
But this is something that we have been constantly engaging 
them on.
    Now, during the height of the conflict they were recruiting 
both sides, opposition and government, and they were utilizing 
militias and many of these militias are traditional youth 
organizations that go on traditional cattle raids and there is 
sort of no distinction there in terms of age of majority, if 
you will.
    And so they ended up being, I think, swept into the 
fighting. So that's part of the problem.
    But, clearly, as we look--and I talked about a security 
sector end state. Clearly, we would want to see a security 
sector end state that the government would support. They would 
have no place at all for child soldiers and we will continue to 
engage on that.
    The State Department last week, I think, issued a very 
direct statement condemning the use of child soldiers in South 
Sudan and the continued practice of that there.
    On UNMISS and its problems in protecting humanitarian 
workers, I would just like to give a little bit of context. The 
U.N. Mission in South Sudan on December 14, 2013, the day after 
the trouble started in Juba, they had camps in Juba and in 
other towns.
    Their own bases had become the sanctuary of tens of 
thousands of South Sudanese who were fleeing ethnically-based 
killing and this was a new move, if you will, for the U.N. to 
actually let people onto their bases in such numbers. But we 
think it was the right thing to do at the time and that it 
saved thousands of lives to have that happen.
    But what has resulted is the U.N. is now saddled with 
somewhere between 150,000 or so people that are actually now 
in, if you will, their own facilities--their own camps--that 
they have to provide static protection to and in many instances 
they don't control much of a perimeter around where their camps 
were and so it takes a fair number of troops to be able to 
provide that static protection.
    So this means that there are fewer troops available for 
moving out into the city and to the countryside. But we have 
had numerous successes.
    For example, back in April of this year Ambassador Phee 
worked very diligently with the government in Juba, the 
regional governor in then Unity State and the U.N. Mission to 
put in a forward base in Leer, which is in Unity State.
    So it was a hot spot for humanitarian needs and the 
humanitarian community was demanding protection there.
    And so the U.N. did go and establish a forward base there 
and that enabled humanitarians to access an area that they had 
not been able to get to for almost 2 years of the conflict.
    So we have had successes like that in some specific cases. 
But the ability of the U.N. to be able to move about the 
country as well as in Juba has been restricted by the 
government.
    UNMISS has had two helicopters shot down by government 
forces over the years--one before the conflict and one since--
and when they need to fly they need to get government 
permission to fly to make sure that it is safe and the 
government does not always give that.
    So, again, I would go back to the problem is perhaps partly 
UNMISS but it is also mainly the government which has not 
allowed UNMISS to do all that it could do to facilitate 
humanitarian assistance delivery and that function--
humanitarian assistance delivery and supporting that--is one of 
the four key functions that the Security Council has given to 
UNMISS. So they, clearly, understand that as part of their 
mandate.
    Mr. Donovan. And if you could just spend a moment, because 
my time had expired, just about your vision on how we get to 
this path of peaceful engagement.
    Ambassador Booth. Well, I think the first step is, as I 
said, getting Juba secured so that there is some space for a 
political engagement.
    Now, why would those that are sitting in Juba now who feel 
that they can implement the agreement where they are--why would 
they go forward on that.
    I think the answer to that is that they have to ensure that 
these people that have been driven out over the past 2 months 
and others that felt already excluded from the peace process, 
if they are not given a peaceful path forward, a political path 
forward, it is going to result in more widespread fighting 
throughout the country.
    And can this government afford that? Is that what it wants 
its legacy to be, a South Sudan that goes down with more and 
more fighting in more and more parts of the country?
    So there is going to have to be pressure on the leaders for 
sure. But, frankly, it is the only way forward that's going to 
lead to peace, is to have this open up some political space and 
have this discussion with others.
    Mr. Donovan. Thank you very much, sir.
    Mr. Smith. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Ambassador, let me come back to a question that my 
colleague, Ms. Bass, asked you, because your response was a 
little troubling with regards to arms and where they're coming 
from and where they are not coming from.
    Are you suggesting in your testimony that we don't know? 
Because you said it was a gray market. But we have unbelievable 
intelligence even in that region. So are you suggesting we 
don't know or that you can't say?
    Ambassador Booth. Congressman, what we do know I would have 
to address in a different setting than this.
    Mr. Meadows. All right. That's fair enough. I just wanted 
to make sure we clarified because here's my concern, 
Ambassador.
    I have followed Sudan and South Sudan before there was a 
South Sudan and it has been a passion for my family from a 
humanitarian standpoint.
    The true stories that have been told will break anyone's 
heart on what so much has not only been done but has not been 
done.
    And so I appreciate you being the Special Envoy and your 
work there in a very complex and difficult situation. But what 
I've also come to find out is that from both sides--those who 
would be supportive of Sudan and those who would be supportive 
of South Sudan in a particular position--they believe that the 
United States has failed to live up to the promises that we've 
made and that we make threats that we don't follow through on.
    And even some of your testimony here today would seem to 
underscore that, that when we talk about arms embargo or 
sanctions does it not have a chilling effect if we ask for 
sanctions and they don't get passed by the U.N. that there is 
no consequences--that life is going to be like it always has 
been?
    Ambassador Booth. Well, first of all, on the threats and 
particularly the example that I gave of the two generals, even 
then, while we were trying to get them on the list we were 
using that as leverage to get them to stop the fighting and 
they were both told directly that we were going to sanction 
them.
    We were proceeding in New York to do so and the only way 
they could get out of this would be if they stopped the 
fighting.
    Well, while the sanctions committee did not approve that 
into the list, it also did have the beneficial effect of the 
fighting dying down in the same time frame.
    So cause or effect, I can't prove it. But I think it----
    Mr. Meadows. I think the results speak for themselves. But 
here's the concern I have. If we make too many idle threats 
that are not backed up by action then ultimately what happens 
is the threat becomes irrelevant and, Ambassador, do you 
believe that our country, indeed, the State Department is using 
all its leverage points to accomplish the task at hand on 
dealing with the issue in South Sudan? Are we using every 
leverage point that we have?
    Ambassador Booth. Congressman, I think--I think we are 
using all the leverage points that we have. Some take some time 
to develop. Sanctions cannot be imposed even bilaterally under 
U.S. law without a rather extensive package that could hold up 
in a court of law.
    Mr. Meadows. Right. Right.
    Ambassador Booth. And so sometimes, you know, when you 
think you need to move against someone you find that the actual 
evidentiary requirements are not there.
    This is, as you mentioned, the idea of idle threats. This 
is one reason we don't just take names up to the Security 
Council if we don't think we can get them through.
    It is also why, for example, we often, as we have done with 
the arms embargo, we will say this will--we will move on this 
and we will put the full weight of the United States behind 
trying to achieve this if you don't do X or Y.
    Mr. Meadows. Well, the reason I ask is because it sounds 
like you walked back a little bit Secretary Kerry's comments 
here today and I guess why would you walk those back?
    Ambassador Booth. Well, I'm certainly not trying to walk 
back what the Secretary said. But our humanitarian assistance--
--
    Mr. Meadows. That is what it sounded but anyway, you go 
ahead and clarify. That's why I am asking.
    Ambassador Booth. Humanitarian assistance is something that 
we provide on the basis of need. It's not something we provide 
on the basis of political----
    Mr. Meadows. But it is something that we must prioritize. 
And so if some groups are using it inappropriately there is 
more need than there is ability, even for a very prosperous 
nation like the United States.
    And so do they understand that there is a priority for 
humanitarian relief?
    Ambassador Booth. That is something that I think----
    Mr. Meadows. But if they don't understand it please let 
them understand it based on this hearing.
    Ambassador Booth. I think it came across from what the 
Secretary said. It certainly is something that I've made very 
directly to them, that they are not the only place in the world 
that needs humanitarian assistance, that there are many other--
--
    Mr. Meadows. And this comes from someone who is--my kids 
collected money in tennis cans to give to them to support. So, 
I mean, it is not out of a noncompassionate heart.
    Let me ask you one other question. I think there is a new 
law about NGOs and 80 percent of those NGOs have been having to 
be South Sudanese citizens in order--is that correct? Are my 
notes correct on that?
    Ambassador Booth. Yes.
    Mr. Meadows. So tell me about the implications. If that is 
indeed correct would that not have a chilling effect on some of 
the work that the NGOs have done and could do in the future?
    Ambassador Booth. This NGO law has been something that's 
been in the making for a long time, something that I've engaged 
on several occasions directly with President Kiir on.
    Yes, there is a provision that says the percentage of 
workers of NGOs need to be South Sudanese. This is something 
that many countries do to try to ensure that aid workers or aid 
organizations are also hiring local staff.
    There are a number of problems with the bill that we've 
pointed out. A lot of them have to do, frankly, with things 
like excessive registration requirements and also very vague 
references to what is allowed and what is not allowed that 
allows the government to interpret whether an NGO is doing the 
right thing or not.
    Mr. Meadows. All right. So let me ask, and be specific 
then--this new law do you see it having the potential of 
providing less humanitarian relief to some of the most needy in 
the country--the potential?
    Ambassador Booth. We certainly see this law as having a 
potential impact on the ability of NGOs, both international and 
local, to operate.
    Mr. Meadows. So does the President--their President not see 
that?
    Ambassador Booth. Well, I'm sure that they do see that.
    Mr. Meadows. But they think that we are just going to go 
ahead and just go along and fund it and create a jobs program?
    Ambassador Booth. Well, I wouldn't see this as a jobs 
program. I think most NGOs probably do hire more than 80 
percent of their staff being local. I don't think that's----
    Mr. Meadows. So why the need for the law then?
    Ambassador Booth. Well, that's a good question and these 
are some of the issues that we have raised repeatedly over 3 
years when this has been under consideration.
    Mr. Meadows. Well, if you could----
    Ambassador Booth. It is a problematic law and we have made 
that very clear.
    Mr. Meadows. Okay. If you could, as the Special Envoy, take 
to their very highest government officials a sincere concern 
from Members of Congress on this new law that potentially the 
humanitarian relief that needs to get to needy families and 
citizens could be stopped because of the unintended 
consequences of a new law and that we would ask them to 
reconsider.
    And with that, I yield back, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Meadows.
    Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman.
    Ambassador, you paint a very bleak picture and what we have 
talked about here today and the testimony you've given--we talk 
about a government that has lost control of its military from 
time to time, an opposition that's gone--a government that has 
raided humanitarian and food aid from this country of which I 
sit on the committee which helps appropriate that money, which 
is why it is concerning to me.
    But as a Catholic, it is also concerning to me that this 
would happen in this day and age that we, as Americans, 
wouldn't be able to do anything about it.
    And the only thing it seems like you've said that we have 
leverage to use is this arms embargo and we keep threatening to 
use it but we never really get there.
    And then I just noticed that maybe it might be a political 
thing to say if we use an arms embargo then we are admitting 
some kind of failure as a government.
    I hope that is not the case. I hope that it is a sincere 
ploy or a sincere intention of this government to use an arms 
embargo because guess what? What can it hurt if we actually do 
it?
    If this guy controls the government there is no opposition. 
He's used the term over-militarization--you used that term. If 
that is true, then the only thing that we can control is how 
much militarization is in that country. Then what can it hurt 
if the United States does take the lead to say that enough is 
enough?
    We've got diplomatic envoys being shot at. We have got all 
kinds of crimes that we have talked about against its own 
citizenry. We have got humanitarian aid and food being seized 
upon. We have got the opposition has fled.
    We have got a government that has lost control of its own 
military and we keep threatening to use this arms embargo as if 
it is something that well, maybe if we say this one more time 
we will put this security force in there of 4,000 people, which 
I got to be quite honest with you--I don't think they are going 
to do anything.
    I think that this is just going to keep going on and on and 
we are going to be right back here again at the next hearing 
talking about how this has failed but we might use an arms 
embargo again.
    I just want to know what will it hurt if we do it. Is it an 
admission by the administration that we failed in South Sudan? 
Is that the problem?
    Ambassador Booth. Well, Congressman, as I've said the--it 
is a major tool and to be effective it has to be done 
multilaterally, not by----
    Mr. Rooney. Why? Just do it. Just use the United States as 
the leader of the free world and do it and other people will 
follow.
    Who cares if it is unilateral? That doesn't make any sense. 
We build coalitions all the time and people follow us because 
we are the number-one country in the world. We are the sole 
superpower.
    Ambassador Booth. Right. And because it is such an 
important tool we have used it effectively and we think we are 
using it effectively now to leverage a way forward for South 
Sudan to get it back to a path of peace and political dialogue.
    Mr. Rooney. Do you believe that? Do you believe that we are 
going to create this space in Juba like you say and there is 
going to be elections and a political process and a 
constitution and all that? Do you believe that--unless we do 
something affirmative?
    Ambassador Booth. Well, something affirmative we are trying 
to do is we are trying to get this force on the ground and get 
Juba to be demilitarized and this is the leverage we are using 
to try to get there.
    Now, the South Sudanese may very well not cooperate with 
this, in which case, as I have said, we are prepared to move 
forward on that as well as potentially other sanctions. So----
    Mr. Rooney. Okay. I hope you do.
    Ambassador Booth [continuing]. Our frustration level is--we 
share it.
    Mr. Rooney. Yes. Hey, you are on the front lines so, I 
mean, I appreciate your service. I just don't believe that any 
of this stuff is going to work anymore. I don't think that the 
security force is going to work.
    I think that we need to move forward with an arms embargo 
now and stop as much bloodshed and killing as we can and 
protect the food and humanitarian aid that Mr. Meadows talked 
about getting in there by however means we need to figure out 
how to do that because I think that's the only thing that's 
left to do is to help the people that are starving and being 
oppressed.
    But, trying to talk about elections and that kind of stuff, 
I don't buy it.
    I yield back.
    Mr. Smith. Thank you, Mr. Rooney.
    Mr. Rooney. Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you, Mr. 
Ambassador.
    Mr. Ambassador, what is your best assessment of the 
anticipated timeline for the Regional Protection Forces, both 
troop generation and deployment, and how long do you expect 
that negotiations with the government will continue on the 
composition of the RPF?
    How long will that delay the deployment? Have any countries 
outside the immediate subregion besides Rwanda indicated that 
they might consider providing troops to the RPF?
    Ambassador Booth. Okay. On the time line--what I have been 
told by the military leaders in the region is that they are 
prepared to deploy the troops very quickly, within a matter of 
weeks, after there is permission from the government to go in.
    They have made it clear they are not fighting their way 
into Juba. The U.N. does not send missions to fight their way 
into countries.
    But if the government in Juba accepts this force and 
provides land for it to be bivouacked on, what I have been told 
is they are prepared to move the troops very quickly.
    Moving the equipment will take a little bit longer and that 
is something that they have indicated that they might need some 
help with.
    Mr. Cicilline. Maybe I wasn't clear, because I recognize 
that the troops are prepared to--I guess my question is what's 
the length of time the government is likely to engage in 
negotiations. That is really the unknown piece of it.
    Ambassador Booth. Well, yes. I mean, there's also questions 
about how fast sometimes countries can actually mobilize their 
troops.
    Mr. Cicilline. Right.
    Ambassador Booth. In terms of that--this is what the 
Secretary-General's report, which should come out and will be 
discussed next week in the Council and will be about is the 
government really moving forward to accept this force and the 
message that was given by the Security Council visit, that 
Secretary Kerry gave with regional leaders including to the 
South Sudanese when we met in Nairobi on the 22nd of August, 
was a very clear message that we expect that this force is 
going to be deployed.
    It is going to be deployed as envisioned by IGAD, which is 
with the troops from those three countries who are committed to 
this mission of actually ensuring freedom of movement around 
Juba, protecting the critical infrastructure including the 
airport and preventing violent actions. So protecting civilians 
in a more robust, not a static, manner.
    Those troop-contributing countries have agreed to that 
mission. So we don't want to enter into a negotiation with 
South Sudan on who the troop contributors will be, what arms 
they will need, how many of them can deploy. That is foreseen 
and what their mission will be--that is all in the resolution.
    And so that is where we get to this idea of using the 
threat of the moving on an arms embargo and potentially other 
sanctions if, indeed, the government tries to delay this.
    So far their actions have been on the one day to say yes, 
the next day to say maybe, the next day to say no and then to 
say well, probably yes again. So this is something that we are 
not going to have patience with to drag on.
    Mr. Cicilline. So that leads to my second question, Mr. 
Ambassador. What influence does the United States have with the 
Government of South Sudan to encourage them to develop a more 
inclusive, transparent, and accountable approach to governance 
and what other things might we do to accelerate that process?
    Ambassador Booth. When I was here in April and we were 
actually looking at trying to help a Transitional Government to 
succeed, one of the pillars of the peace agreement that I 
mentioned was this idea of the economic reform and in 
particular strengthening the transparency of public financial 
management and that's something that we believe needs to happen 
in South Sudan.
    The kleptocracy of the past must end. As I mentioned in my 
testimony, we are continuing to look and utilize information to 
utilize sanctions that are available, particularly travel 
sanctions, for corrupt practices--to send the signal that being 
in charge in South Sudan it's not about just enriching 
yourself--trying to change a little bit of the mentality of 
those who might lead the country going forward.
    So a very important component--how do we get them to do 
it--again, I think our main leverage is, you know, what is it 
they want from us.
    At that point, they were clearly looking for support for 
their budget, for their economy, and they have recently come 
out again and said to the international community we need $300 
million from you this year. That's not going to be forthcoming 
unless these types of reforms occur.
    Mr. Cicilline. And my final question, Mr. Ambassador, is 
the director of the African Center for Strategic Studies has 
suggested that it may be time to put South Sudan on life 
support by establishing executive mandate for the U.N. and the 
AU to administer the country until institutions exist to manage 
politics nonviolently and to break up patronage networks 
underlying the conflict.
    If such an initiative were to be considered how do you 
think it would be executed given the sensitivity of the current 
government to foreign intervention and parent reticence of some 
of the Security Council toward U.N. actions perceived to 
threaten South Sudan's sovereignty?
    It seems like that would be a very difficult initiative to 
move forward on. But I would love your assessment of it.
    Ambassador Booth. I have seen that proposal. We have looked 
at that idea. Frankly, the U.N. cannot impose this on a member 
state.
    The African Union I think certainly has absolutely no 
appetite for putting one of its member countries under an 
international trusteeship or guardianship, whatever you want to 
dress it up and call it.
    That is something that I don't see that we would have any 
support for--impractical--and I don't see how the South 
Sudanese would ever accept it.
    The visceral reaction they have had even to this--to the 
role of JMEC in overseeing implementation of the agreement as 
an extra sovereign force, the reaction that they've had, where 
the initial reaction to the joint--the Regional Protection 
Force was not one more foreign soldier--we will fight them--
this is a matter of sovereignty.
    I think you get the idea of how that would be received in 
South Sudan.
    Mr. Cicilline. Thank you. I thank you, Mr. Chairman. I 
yield back.
    Mr. Smith. Thank you. Before we go to our next panel, I 
would like to just say, I make it a point to always meet with 
the bishops, the faith community, the Protestants, whatever the 
denominations might be in every country.
    Greg Simpkins and I met with Archbishop Paulino Lukudu 
Loro, had a very, very good exchange on the reconciliation 
aspects of what the church can provide and also the 
humanitarian assistance. Are we fully utilizing the faith 
community in South Sudan?
    Secondly, there is a Foreign Policy article, September 
6th--very disturbing. I was briefed on it when I was in South 
Sudan about the gunning and the bullets that were sent into two 
of our vehicles as they passed by Salva Kiir's compound by his 
troops.
    Thank God nobody was hurt but the State Department says we 
do not believe our vehicles and personnel were especially 
targeted.
    But the article's author, Colum Lynch, points out that 50 
to 100 rounds were pumped into those two vehicles. The SUV--
armored SUVs held laminated cards with the American flag on it 
and also the diplomatic plate number 11.
    Are we investigating this? Do we believe it was by design 
or by mistake? Even by mistake is bad enough but it was by 
design?
    And finally, on the sanctions, we have had sanctions for 2 
years--OFAC sanctions--the Office of Foreign Assets Control.
    They are well laid out--child soldering sanctions against 
persons contributing to the conflict in South Sudan. There are 
only six people on it and I wonder if you are looking at that 
to expand it and make it more robust in terms of those who meet 
the criteria so well laid out 2 years ago in this sanctions 
regime.
    Ambassador Booth. Well, Mr. Chairman, on your question 
about engaging with the faith-based community, yes, we do 
engage with them both within South Sudan and also the Vatican.
    We have been in touch with them on numerous occasions and 
comparing notes on South Sudan and they have also engaged.
    I think one of the senior cardinals recently went there as 
an emissary for the Pope and a number of the religious leaders 
spoke out during the visit of the U.N. Security Council 
permanent representatives this past weekend in favor of the 
Regional Protection Force being deployed and moving forward on 
a political process.
    So I think the faith-based community is finding its voice. 
We have also, through USAID, given a $6 million grant to the 
South Sudan Council of Churches to work on community-based 
reconciliation efforts. So we are engaging the faith-based 
community.
    I think in the many meetings that I have had with religious 
leaders in South Sudan after the outbreak of fighting in 
December 2013 they showed a lot of frustration and that the 
leaders seemed to have turned a deaf ear to them.
    I think they are beginning now to, as I say, find their 
voice in unison and it may become harder going forward.
    On the July 7th firing on two U.S. vehicles that contained 
several U.S. diplomats, this occurred, as I mentioned, very 
shortly after similar looking vehicles that were driven by the 
opposition forces who had come into town on some mission and 
they were going back to Riek Machar's compound area and they 
were driving in this--it is always a tense area because it's 
right by the President's compound and they tried to stop that 
vehicle. The opposition people refused to get out of the 
vehicles and they sped off and the soldiers fired at those 
vehicles.
    The opposition security officials in the vehicles fired 
back and killed, I believe, five government soldiers right in 
that very vicinity.
    So it was a very tense environment. There were a lot more 
soldiers out on the street after that incident and our cars 
came along and they were--it wasn't a formal checkpoint.
    It was a lot of soldiers on the street waving them down. It 
was very dark and our vehicles have tinted glass.
    So even though for the brief time that they stopped and 
tried to show identification it is not at all clear that these 
soldiers would have been able to see it or, frankly, even 
understand the license plates.
    You are dealing, don't forget, with an army that is 
primarily illiterate and so when our vehicles--according to 
standard operating procedures when they tried to open the doors 
of our cars--also sped off the soldiers opened fire, just as 
they had when it had happened with opposition vehicles and, 
again, shortly, again, in the same area shortly after that 
incident the country representative for UNESCO, an Egyptian 
national, was driving in the area and encountered a similar 
problem and because he was not in an armored vehicle he was 
actually seriously wounded.
    So, again, to say this was targeting Americans, we did not 
deduce that from the circumstances and the regional security 
officer working with diplomatic security back here in 
Washington conducted an internal investigation of the events 
and the review of that report is still ongoing and we were very 
thankful, of course, that our people had the resources, that we 
had the fully armored vehicles there for them to ride around 
Juba.
    That is why our security protocols call for them to be 
riding in armored vehicles in most parts of town and 
particularly after dark. And in response to that incident the 
Embassy's emergency action committee met the next morning and 
changed the curfew to a dawn to dusk so took appropriate 
actions to try to mitigate that.
    In terms of sanctions, let me just say yes, we share the 
frustration. I mentioned some of the difficulties of actually 
putting together packages that meet all the legal criteria. But 
we certainly will look at taking actions against those who 
continue to impede the peace process or hindering humanitarian 
delivery and the like.
    Ms. Bass. Yes. I just wanted to take a moment to 
acknowledge that there are several people here from Gabon who 
are expressing their concern about the elections that took 
place.
    I just want you to know that we see you. We read your 
posters. I know you were asked to put them down but we did see 
what they said and we also are concerned and I just wanted to 
acknowledge that your presence has not gone unnoticed.
    Mr. Smith. And I fully concur with the ranking member and 
thank you for being here.
    I would like to now yield to Mr. Meadows.
    Mr. Meadows. Ambassador, let me come back with two very 
quick points. I mentioned the NGOs and technology is a great 
thing so I got some information that would suggest that even 
within the last few hours or few days that there has been 
potentially the shutdown of 40 NGOs and the threat, if not the 
reality, of seizing their assets. Are you aware of that report?
    Ambassador Booth. We have received reports over the past 
several hours of harassment of a number of NGOs, civil society 
organizations.
    Mr. Meadows. So you would say that that report could be 
accurate? You're getting the same----
    Ambassador Booth. It could be. We have to look into that 
and try to verify it.
    Mr. Meadows. All right. So will you get back to this 
subcommittee right away on whether that is accurate or not? And 
I guess the second follow-up question to that is if it is 
accurate will you be resolute in your condemnation of saying 
and that we will not tolerate that kind of behavior if our 
humanitarian aid is going to continue?
    Ambassador Booth. I can assure you, Congressman, that we 
will be very direct and very strong in a condemnation of any 
harassment of----
    Mr. Meadows. But seizing of assets and it is more than just 
harassment and so that's my concern. And so will you commit to 
get back to this subcommittee within the next 7 business days 
to let us know what is happening on that?
    Ambassador Booth. Well, let me say that we will get back to 
you as soon as we can confirm----
    Mr. Meadows. All right. Well, what is a reasonable time? If 
7 days is not reasonable what is a reasonable time?
    Ambassador Booth. Again----
    Mr. Meadows. 14 days?
    Ambassador Booth. I am not on the ground.
    Mr. Meadows. I mean--I mean, it----
    Ambassador Booth. 14 days--give us 14 days, yes.
    [The information referred to follows:]
 Written Response Received from the Honorable Donald Booth to Question 
         Asked During the Hearing by the Honorable Mark Meadows
          update on harassment of civil society in south sudan
    There has been an uptick in reported harassment, threats, and 
violence toward South Sudanese civil society organizations (CSOs) in 
recent weeks and specifically following the September 3 meeting in Juba 
between CSOs and the UN Security Council (UNSC). The U.S. government is 
deeply concerned and U.S. Embassy officials have met with multiple 
activists to discuss this trend, and continue to follow up.
    Both before the UNSC arrived and immediately after they departed 
Juba, several CSOs reported receiving anonymous phone calls ordering 
them to shut down and saying their assets would be seized because of 
the ``anti-government'' messages they had been spreading. On the night 
of September 4, one activist received text messages from an unknown 
number asking for her present location. The following day, while she 
was at work, her home was visited by unidentified armed men who asked 
after her whereabouts and told neighbors that they wanted to talk to 
her because she had ``talked ill of the government'' in the September 3 
UNSC-CSO meeting. Some CSOs believe that the Sudan People's Liberation 
Army (SPLA) Military Intelligence is responsible for the harassment, 
while others have blamed the National Security Service (NSS). Activists 
have reported that the government has made considerable effort to 
infiltrate civil society, including the placement of NSS officers into 
CSOs, which has severely undermined the trust networks activists rely 
upon to function in South Sudan.
    Some activists who were in the September 3 meeting have fled South 
Sudan out of fear for their safety. One civil society actor who 
participated in the September 3 meeting was detained and interrogated 
by NSS when, on September 5, he attempted to depart Juba International 
Airport en route to Uganda; he was eventually allowed to leave.
    One activist, who did not take part in the September 3 meeting, 
reported that another, who also seems not to have taken part, was 
killed by NSS officers after a political argument at a cafe later on 
September 3. This is an unverified report from a single source who 
claims second- or third-hand knowledge of the incident. The individual 
who was allegedly killed was not known to the U.S. Embassy or to its 
contacts in Juba. It has not been possible to verify this report, as 
many details, including the location of the body, remain unknown or 
unconfirmed. The State Department continues to seek information about 
this case.
    Particularly concerning is the government's use of the Non-
Governmental Organizations (NGO) Act and the Relief and Rehabilitation 
Commission (RRC) Act as tools to close down CSOs. Some groups were 
warned verbally that they would have to ``answer'' for ``pro-West, 
anti-government'' views, which they were told constituted banned 
political activity under the Acts, and as a result, the RRC would 
suspend their registrations.
    There have been reports of threats by the Government of South Sudan 
(GOSS) to freeze CSO bank assets following the September 3 meeting, 
although no CSO has reported any assets actually being frozen or seized 
since then. The CSO actors who reported harassment before and after the 
September 3 meeting work in advocacy areas, not in humanitarian 
assistance. However, humanitarian actors face numerous physical 
obstructions to access those in need of assistance, as well as taxes, 
fees, and other bureaucratic impediments imposed at multiple levels by 
the GOSS. While the reported harassment since September 3 has affected 
CSOs engaged in advocacy work, some humanitarian organizations have 
reported harassment by the RRC based on the language of the NGO and RRC 
Acts.
    Some CSOs report that they are working ``within their own 
networks'' in an effort to persuade the GOSS to relax its harassment 
and refrain from de-registration, and some fear that intervention on 
their behalf by the U.S. government or other foreign countries could 
make their security situation more precarious. Other CSOs have 
requested U.S. government engagement with the GOSS on opening the 
political space.
    Unfortunately, the closing of political space in South Sudan is a 
long-term trend. The State Department has registered its concern on 
multiple occasions in public, most recently in a press statement on 
September 10. Ambassador Samantha Power expressed her concerns in an 
official statement issued the same day. State Department officials at 
the highest levels previously raised concerns about the closing 
political space directly with the GOSS, including with President Kiir, 
and will continue to do so in light of this recent and troubling trend.

    Mr. Meadows. Okay. All right. Fourteen days--we will do 
that. And the last thing is this is you talked about a 
political environment which is open and inclusive and yet we 
are hearing reports that potentially someone took a letter to 
the U.N. Security Council and might have been murdered after 
that. Would you care to comment on what's happening since the 
U.N. Security Council's visit?
    Ambassador Booth. Well, some of this harassment of civil 
society that----
    Mr. Meadows. Well, murder is more than harassment.
    Ambassador Booth [continuing]. That we have been hearing 
about has been subsequent to the visit by the Security Council. 
But is something that has gone on in the past as well. We have 
long been----
    Mr. Meadows. So how much of that are we going to tolerate--
--
    Ambassador Booth [continuing]. Press freedom and freedom of 
movement for NGOs and the like.
    Mr. Meadows. So how much of that are we going to tolerate?
    Ambassador Booth. Well, it's a matter what can we actually 
do to affect that behavior.
    Mr. Meadows. I will yield back. We have many leverage 
points. Thank you, Mr. Chairman, for your flexibility.
    Mr. Smith. Thank you, Ambassador Booth, for your leadership 
and for spending your time today with us at the subcommittee. 
Thank you.
    I would like to now invite to the witness table Ambassador 
Princeton Lyman, who is senior advisor to the President of the 
United States Institute for Peace. Ambassador Lyman served as 
U.S. Special Envoy for Sudan and South Sudan from March 2011 to 
March 2013.
    As Special Envoy, he led U.S. policy in helping in the 
implementation of the 2005 Comprehensive Peace Agreement. 
Ambassador Lyman's career in government included assignments as 
Deputy Assistant Secretary of State for African affairs, U.S. 
Ambassador to both Nigeria and South Africa and Assistant 
Secretary of State for international organizations. He also was 
a member of the African Advisory Committee to the U.S. Trade 
Representative. He began his career with USAID and served as 
its director in Ethiopia.
    We will then hear from Mr. Brian Adeba, who is a journalist 
by training and was previously an associate of the Security 
Governance Group, a think tank that focused on security sector 
reform in fragile countries.
    Over the last 3 years, his research interests have focused 
on inter linkages of media, conflict, human rights, and 
security.
    He supervised the coverage of the conflict zones in Darfur, 
South Kordofan, Blue Nile, and eastern Sudan for the Boston-
based Education Development Center's Sudan Radio Service 
Project in Nairobi, Kenya.
    Prior to this he served as project and publications 
coordinator at the think tank the Center for International 
Governance Innovation in Waterloo, Canada. Again, he is 
representing the Enough Project.
    Ambassador, please proceed.

 STATEMENT OF THE HONORABLE PRINCETON N. LYMAN, SENIOR ADVISOR 
           TO THE PRESIDENT, U.S. INSTITUTE OF PEACE

    Ambassador Lyman. Thank you very much, Mr. Chairman, and 
let me begin by thanking you personally for all the support you 
and the committee provided when I was Special Envoy, and you 
and Congresswoman Bass and the members of the committee 
continue to focus attention on this set of issues. It is very 
important and it is very much appreciated.
    I am not going to go over the background of the situation. 
I want to address some of the key questions that you have 
raised and have been raised in the previous exchange.
    Let me start with the peace plan itself around which all 
the various activities are organized. The IGAD peace plan, 
which was signed in 2015, on paper is a very comprehensive 
agreement.
    But it has a fatal flaw to it and that is it rests very 
largely on the willingness, ability, and commitment of the very 
antagonists who brought the country into civil war to carry out 
a fundamental political transformation. It is not in their 
interest to do so and what we have seen over the last year or 
so is that instead of carrying that forward they fell back into 
conflict. Now Riek Machar has been driven out of the country. 
Without a strong international oversight and administrative 
oversight of this program, it was not likely to succeed.
    The second problem that we now face is that it would be a 
mistake to assume that, with the accession of Taban Deng Gai to 
the Vice Presidency, we have a government of national unity.
    Taban Deng does not command the loyalty of all the various 
forces that were fighting this government and to assume that it 
is capable of carrying out a comprehensive and being inclusive 
would be wrong. It is not.
    Now we have the humanitarian crisis which the people have 
addressed. It is an outrageous situation that the international 
community, and the United States alone is spending over $1 
billion a year--that over 60 aid workers have been killed 
trying to carry out a humanitarian program--that they have been 
attacked and, again, most recently in the Terrain hotel.
    And both sides have impeded this activity--that the 
international community seems to care more for the people of 
South Sudan than the leaders on both sides. That is an 
outrageous situation. And what it does is call into question 
whether the government has the--can claim to the rights and 
responsibility of sovereignty which goes with the claim of 
sovereignty.
    Recently Kate Almquist, as Congressman Cicilline mentioned, 
and myself, did an op-ed saying that there should be an 
international oversight administration of South Sudan. Without 
that, we did not see how this peace plan could go forward. 
Ambassador Booth has described the role of JMEC under the peace 
plan and the role of Festus Mogae. The fact is that that 
mechanism has no real authority over the parties and Festus 
Mogae himself has, on several reports, said that almost no 
progress has been made on implementing the peace process.
    Now, the proposal we made, of course, it would be 
extraordinarily difficult to do and Ambassador Booth indicated 
that. But here is the fundamental question and the fundamental 
challenge.
    The peace process is in the hands of IGAD and the African 
Union, primarily, and if they are not prepared to amend the 
current peace process and create a true oversight authority, 
which they will back up politically, back up by enforcing an 
arms embargo, by taking other measures, then that peace plan 
won't work.
    Now, if they are prepared to do that, then no one needs 
trusteeship or anything else. But the problem is that IGAD is 
badly divided. They are not in agreement. They have threatened 
an arms embargo many times but never followed through.
    And as for the U.N. Security Council, we have an adage that 
guides, you know, practicality. When the Africans are divided, 
the Security Council is divided. You are not going to get 
sanctions past Russia and China unless the Africans are united 
and say this is what they want. But the Africans are divided. 
IGAD is divided.
    So even if the U.N. Security Council wanted to pass an arms 
embargo, those surrounding countries would have to implement it 
and make sure that arms weren't sneaking through.
    So the primary attention and effort seems to me, for the 
African Union and for IGAD to decide exactly if they are in 
control of this process, how to strengthen it.
    Now, let me address this question of the 4,000 troops that 
are being added. As you pointed out, it is a question of 
putting these under UNMISS and whether they will act 
differently.
    It is very difficult to contemplate a U.N. peacekeeping 
force confronting in an armed way the forces of the host 
government. I do not think very many U.N. peacekeeping forces 
are prepared for that. I am not sure the Security Council is 
even prepared for it.
    So the question is, is this force really going to have the 
mandate to confront not just outliers but an attack like the 
Terrain hotel complex and go up against government forces?
    That is a very difficult thing to do and it has to be 
backed solidly by the troop-contributing countries, and by 
IGAD, and by the U.N. and if they are not prepared for that, 
then this force may secure the airport but they won't be able 
to protect civilians.
    Now, the other question is the political context. Putting 
more forces into Juba without changing the nature of the peace 
process and the way it is enforced seems to me is going to have 
a continuation of the situation we now have.
    So I think it is critical that the U.S., the international 
community, and the United Nations call upon the African Union 
and IGAD to strengthen that process so there is real oversight 
and enforcement of the peace process with sanctions and 
punishment for those who get in the way of it. Otherwise, we 
won't get the transformation we need and I think that is the 
great dilemma that we now face in South Sudan.
    Thank you very much.
    [The prepared statement of Ambassador Lyman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Ambassador Lyman, thank you so very much and, 
again, thank you for your prior service as Special Envoy.
    Mr. Adeba.

  STATEMENT OF MR. BRIAN ADEBA, ASSOCIATE DIRECTOR OF POLICY, 
                         ENOUGH PROJECT

    Mr. Adeba. Chairman Smith, Ranking Member Bass, members of 
the subcommittee, I want to thank you for your continued focus 
on South Sudan and for inviting me to testify.
    Impunity is entrenched in the system of rule in South 
Sudan. The horrific Terrain hotel incident is an example of 
that impunity.
    The country's leaders commit horrific crimes and treat 
state resources like their personal property. The country's 
money is captured by a few and used to wage war.
    With financial leverage on these leaders and your continued 
leadership and support it is possible to counter this system 
and the perverse inclinations of its leaders.
    It is possible to disrupt access to the proceeds of 
corruption that fund war and to shift the incentives of South 
Sudan's leaders toward peace.
    Congress can do the following four things to have an 
immediate impact on the perpetrators of the crisis in South 
Sudan.
    First, Congress can make sure that the U.S. Treasury 
Department has the staff and the funds it needs to use more 
anti-money laundering measures. The measures can be used to 
target and freeze the assets of elite politicians and leaders 
in South Sudan who perpetuate violence, loot public coffers, 
and use the international financial system, including U.S. 
institutions, to launder deposits of their ill-gotten wealth.
    Second, you can ensure the administration imposes targeted 
sanctions and asset freezes on top leaders and support others 
who take these measures.
    We have had discussion about how the threat of sanctions 
alone is not inducing the change that is needed in South Sudan. 
So when we look at the recommendation, this is a call to 
action.
    Third, you can push for stronger enforcement of existing 
sanctions and asset freezes in the United States and 
internationally on the South Sudanese political elite.
    Fourth, you can pass the Global Magnitsky Human Rights 
Accountability Act. This act authorizes the U.S. President to 
impose sanctions on government officials like those in South 
Sudan who misappropriate state assets and attack anti-
corruption crusaders.
    I believe these four steps can strike directly at the 
wallets of the people responsible for the suffering in South 
Sudan, the people who commit crimes and enrich themselves 
because they believe they will not face consequences for their 
actions.
    These leaders are more likely to support peace when they 
pay a price for war. The institutional challenges in South 
Sudan require your long-term support as well.
    I travelled to Juba this past April to analyse this very 
issue. April was a month full of hope and the past Vice 
President and main opposition leader, Riek Machar, had returned 
to town.
    People believed that the fighting would stop and the two 
leaders would work together to govern. There was hope that the 
critical governance institutions could begin to function 
properly as well.
    I focused my research on three key institutions--the Anti-
Corruption Commission, the National Audit Chamber, and the 
Public Accounts Committee in the National Legislative Assembly.
    I found that all three were severely undercut 
intentionally. Top-level politicians deprived them of the money 
they need to function. Conflicting laws prevent prosecutions of 
officials that have been investigated. And cronyism undermines 
the effort to fight graft.
    The mechanisms and institutions that could promote 
accountability do not have what they need to be effective. But 
there are several things Congress can do to help South Sudanese 
people address their institutional and systemic challenges.
    First, continue to support the people in South Sudan who 
fight for transparency and accountability. Listen to them. 
Stand with them and help them raise their voices.
    Second, ensure there is strict budget oversight for 
assistance to South Sudan. Those who command or commit 
atrocities and seek personal enrichment should not be able to 
misappropriate public funds, especially those given by 
Americans to support the South Sudanese people.
    Third, support and strengthen the institutions in South 
Sudan that can build an open and accountable government. These 
institutions could work much more effectively than they do 
today. But they need political, technical, and financial 
support.
    Most of all, they need the space to operate without undue 
political interference.
    A fourth institution that needs these same things is the 
Hybrid Court of South Sudan that was established in the August 
2015 peace agreement to ensure accountability for war crimes.
    Next week, on September 12, the Sentry, an initiative of 
the Enough Project, will publicly present the results of a 2-
year investigation into corruption in South Sudan.
    The Sentry has documented the connection between high-level 
grand corruption and violence in South Sudan and we encourage 
U.S. policymakers to take immediate action on the findings we 
release.
    Your support is critical. The stakes are very high in South 
Sudan. If South Sudanese leaders face no price, no deterrent 
for their crimes from anyone, South Sudan will disintegrate.
    With your help, that can be prevented. Thank you very much 
for your efforts on South Sudan and for your tireless 
commitment to the South Sudanese people.
    [The prepared statement of Mr. Adeba follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Adeba, thank you very much for your personal 
work, your trip, which really uncovered--and you got to see 
those three institutions in particular.
    Thank you for relaying that to us. Without objection, your 
full statements will be made a part of the record.
    And, unfortunately, we do have a series of votes--well over 
an hour we expect of voting. So we will conclude here but I 
want you to know how deeply appreciative we all are on the 
subcommittee for your leadership, for your guidance and we will 
stay in touch going forward.
    In a week I look forward or so to that new report which the 
committee will digest and, I'm sure, utilize as we have in the 
past with those from the Enough Project.
    And Ambassador Lyman, thank you, because you did 
extraordinary service under very difficult situations. So thank 
you for that leadership all those years and your entire Foreign 
Service career.
    The hearing is adjourned and, again, I would have liked to 
have asked some questions. I will submit a few for the record. 
If you could get back to us in a timely fashion that would be 
greatly appreciated.
    The hearing is adjourned.
    [Whereupon, at 3:50 p.m., the committee was adjourned.]

                                     
                                  

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
